                                              OFFICE OF INSPECTOR GENERAL
                                                                             MEMORANDUM



 DATE:        March 26, 1999

   TO:        Chairman

 FROM:        Inspector General

SUBJECT:      Final Report on the Audit of the Federal Communications Commission’s
              Implementation of the Government Performance and Results Act (GPRA)

Attached please find a copy of the subject audit report. The primary objective was to review the
Commission’s implementation of GPRA. This encompassed reviewing documents, conducting
interviews, and evaluating the framework of the strategic plan.

The auditors determined that, while the Commission has made significant strides in meeting
GPRA requirements, a major weakness of the plan is its lack of outcome-oriented annual
performance goals.

This report contains a recommendation that the Commission take necessary actions to address
this condition by making outcome-based performance goals. Management concurred with our
recommendation and stated that they have already begun work on completely revising the
Commission’s strategic plan.




                                                    H. Walker Feaster III
Attachment
cc: Chief of Staff
    Managing Director
    Associate Managing Director, PERM
       FEDERAL COMMUNICATIONS COMMISSION
                       OFFICE OF INSPECTOR GENERAL




                      AUDIT REPORT NO. OIG 98-01
   REPORT ON AUDIT OF THE FEDERAL COMMUNICATIONS
   COMMISSION IMPLEMENTATION OF THE GOVERNMENT
        PERFORMANCE AND RESULTS ACT (GPRA)

                                 March 26, 1999




_____________________________                         _____________________________
 ASSISTANT IG FOR AUDITS                                    SENIOR AUDITOR




                            ____________________________
                                INSPECTOR GENERAL
            REPORT ON AUDIT OF THE
     FEDERAL COMMUNICATIONS COMMISSION
      IMPLEMENTATION OF THE GOVERNMENT
     PERFORMANCE AND RESULTS ACT (GPRA)




                       Table of Contents
                                                                     Page

EXECUTIVE DIGEST ........................................……………………………... 1

AUDIT SCOPE ..............................................…………………………………. 2

BACKGROUND ...............................................……………………………….. 2

AUDIT FINDINGS/RECOMMENDATION ................…………………….... 2

MANAGEMENT RESPONSE ……………………………...................…….... 3

APPENDIX A – Performance Goal Evaluation

APPENDIX B – Management Response
                              EXECUTIVE DIGEST
As a result of our audit, we determined that the FCC met all GPRA mandated reporting
dates, drafted a Strategic Plan reflecting Congressional intent that contains a results-
oriented Mission Statement based on statute (Telecommunications Act of 1996) and
outcome-oriented activity goals. However, because of extensive use of output oriented
performance goals, it did not fully comply with the objectives of the GPRA.
                                  AUDIT SCOPE
The OIG's audit scope incorporated steps necessary to form an opinion as to the FCC’s
compliance with GPRA requirements. Through research, analysis and interviews the
auditors obtained sufficient evidentiary matter from which audit conclusions could be
reached. The audit only addressed those components of GPRA which were to have been
implemented as of the date audit fieldwork was concluded. This initial GPRA audit did
not incorporate evaluation of supporting documentation prepared at the Bureau and
Office level and included in the FCC’s GPRA comprehensive reports. This work will be
undertaken in the second phase of our GPRA audit.


                                 BACKGROUND
On August 3, 1993, Congress passed GPRA (P.L. 103-62). In ratification of GPRA,
Congress sought to make Federal agencies accountable for their performance.
Specifically, GPRA required agencies to develop strategic plans and performance goals,
in addition to measurement techniques which can be used by Congress to determine, on
an annual basis, whether they have met their performance goals.

Within the FCC, the Associate Managing Director for Performance Evaluation and
Records Management (PERM), Office of the Managing Director (OMD), is designated as
the FCC’s GPRA coordinator. Under her stewardship, the FCC met the initial GPRA
implementation requirement by submitting the initial FCC Strategic Plan to the public,
via the Internet, for comment and to OMB and Congress as part of its FY 1998 budget
submission. Additionally, updated versions of the plan were provided in the FY 1999
and FY 2000 budget submissions.



                                AUDIT FINDINGS

                                       Finding 1

The Commission has made substantial progress towards developing a plan to meet GPRA
objectives and requirements. It has assigned program oversight to a senior level official
within the Office of the Managing Director, the Associate Managing Director, PERM.
This official met with representatives from all Commission bureaus and offices to
educate them as to the components of GPRA and the related impact upon their offices
and the Commission as a whole. PERM established a FCC framework for complying
with GPRA reporting requirements. For example, in concert with FCC management, a
determination was made to align the FCC with the Telecommunications Act and along its
four primary activities: Authorization of Service, Policy and Rulemaking, Enforcement,
and Public Information Services. With this basic framework established, PERM worked
with agency representatives to establish means, strategies and resources required to meet
specific goals and objectives for each of those primary activities. As a result of PERM’s
efforts, the FCC complied with all required GPRA reporting dates and submitted a
Strategic Plan that contained the following six, GPRA required, critical components:

    1. Comprehensive, results-oriented, mission statement based on statute, the
       Telecommunications Act of 1996;

    2. Commission-wide general long-term goals and objectives covering the four
       primary FCC activities: Authorization of Service, Policy and Rulemaking,
       Enforcement, and Public Information;

    3. Disclosure of the means, strategies, and resources the Commission plans to
       employ or need in order to achieve its goals and objectives for each of the above
       primary activities;

    4. Identification of the FCC’s annual performance goals by including them as sub-
       elements of each general long-term goal and objective for each primary activity;

    5. Discussion of the key factors, external to the Commission and beyond its control,
       that could significantly affect achievement of its strategic goals, including:
       passage of the Telecommunications Act of 1996, the Year 2000 issue, and the
       impact if any, of cross cutting issues resulting from FCC interaction with other
       Federal agencies; and,

    6.    Description of how the Commission will use program evaluations to establish or
         revise its strategic goals. Specifically, the FCC cited analyzing its Quarterly
         Workload Report Evaluations, Speed of Disposal processing statistics, and other
         internal management reviews as its principal evaluation tools.

                                       Finding 2

While the Commission has made significant strides in meeting GPRA requirements a
major weakness of its plan is the lack of outcome-oriented annual performance goals.
Based upon an OIG analysis* of the performance goals included in the FY 2000 budget
submission to Congress, only 8 percent (5 of 61) could, in our opinion, be characterized
as outcome based. Program officials attributed this condition to a number of factors:

   •     Implementation of the Telecommunications Act of 1996 and its impact on the
         Commission that was beyond its control;

   •     The Commission does not have management systems in place for measuring
         outcome-oriented performance;



* Please see Appendix A
   •   The Commission lacked the resources to plan more outcomes or implement data
       collection systems for measuring results; and,

   •   The difficulty in assessing the results of a regulatory agency’s impact on its
       constituents, because measurement is usually delayed approximately one to two
       years after a regulatory action is taken.

While the OIG understands the difficulty in developing and measuring outcome-oriented
goals, it is our belief that the lack of clearly defined outcomes and measurement criteria
may have a negative impact on the Commission in FY 2000 when agencies are to submit
measurement reports.


                            RECOMMENDATION
We recommend that the FCC should take the necessary actions to review its current plan
and to develop performance goals that are outcome-oriented.

                          MANAGEMENT RESPONSE
The Managing Director and Chief OMD-PERM concur that these findings are a fair and
accurate analysis of the Commission’s FY 2000 strategic planning efforts*. They further
stated that the Commission has already begun to completely revise its strategic plan by
hiring an outside consultant to train the FCC’s senior level executives in the strategic
planning process.




*Please see Appendix B
